	                                                        February 2014



                                                        INFORMATION SECURITY
                                                        Evaluation	of	FTC’s	Information	Security	
                                                        Program	and	Practices	for	Fiscal	Year	
                                                        2013	
                                                        What	We	Found	

                                                        The IG’s independent FISMA evaluation for FY 2013
                                                        determined that the FTC is in substantial compliance with
                                                        applicable security and privacy requirements.

                                                    	   The IG’s CyberScope FISMA metrics submission to the
	
                                                        Department of Homeland Security showed that FTC
Why	We	Did	This	Study		                                 information assets are reasonably protected against threats
	                                                       originating from within and outside the agency, but there are
The Federal Information Security Management             opportunities for improvement. These include process
Act of 2002 (FISMA) provides a comprehensive            changes to Information Technology (IT) governance practices
framework for ensuring the effectiveness of             and continued maturation of the FTC security and privacy
technical, administrative, and physical security        programs.
controls over Federal information resources.
FISMA requires an annual Inspector General              FTC information security and privacy programs are maturing
evaluation of compliance with FISMA                     through self-initiated actions and improvements initiated in
requirements and related information security           response to IG recommendations:
policies, procedures, standards, and guidelines
and an assessment of the level of security                     Documentation is revised and standardized as part of
afforded to associated information assets.                      ongoing operations and maintenance activities;
                                                               Enterprise-level oversight practices are improving as
The evaluations provide agency senior                           newly instituted IT governance boards begin to
management and others with the information                      influence IT planning and resource allocation; and
needed to determine the effectiveness of overall               Security and privacy processes are revised to
security programs, ensure the confidentiality and               accommodate changes in governmentwide
integrity of data entrusted to the FTC, and to                  requirements.
develop strategies/best practices for cost
effectively improving information security.             The foundation for a National Institute of Standards and
                                                        Technology risk-based model was laid in FY 2012 and
The FTC Office of Inspector General contracted          continues to evolve; however continued improvement of the
with Allied Technology Group, Inc. to conduct an        FTC information security and privacy programs requires
evaluation to determine the status of the FTC’s         consistent application of information security and privacy
information and privacy programs at September           policies.
30, 2013, as required under FISMA and
associated guidance. A full report on our               What	We	Recommend	
evaluation was prepared for FTC internal use
only.                                                   Program consistency and compliance needs to be reinforced
                                                        through visible monitoring and oversight by FTC IT
                                                        governance boards and senior management.


                                                                                                          AR 14-002
